<html>
<title> - AFGHANISTAN: HONORING THE HEROES OF EXTORTION 17</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]









            AFGHANISTAN: HONORING THE HEROES OF EXTORTION 17

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2014

                               __________

                           Serial No. 113-98

                               __________

Printed for the use of the Committee on Oversight and Government Reform







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

87-499 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                   Subcommittee on National Security

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Minority Member
JUSTIN AMASH, Michigan               CAROLYN B. MALONEY, New York
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
TREY GOWDY, South Carolina           JACKIE SPEIER, California
CYNTHIA M. LUMMIS, Wyoming           PETER WELCH, Vermont
ROB WOODALL, Georgia                 MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 27, 2014................................     1

                               WITNESSES

Mr. Garry Reid, Principal Deputy Assistant Secretary of Defense, 
  Special Operations & Low Intensity Conflict, U.S. Department of 
  Defense
    Oral Statement...............................................     6
    Written Statement............................................     8
Ms. Deborah Skillman, Director, Casualty & Mortuary Affairs, U.S. 
  Department of Defense
    Oral Statement...............................................    20
Colonel John Devillier, USAF, Commander, Air Force Mortuary 
  Affairs Operations, U.S. Department of Defense
    Oral Statement...............................................    21
    Written Statement............................................    23
Colonel Kerk Brown, USA, Director, Army Casualty & Mortuary 
  Affairs, U.S. Department of Defense
    Oral Statement...............................................    29
Commander Aaron Brodsky, USN, Director, Navy Casualty Services, 
  U.S. Department of Defense
    Oral Statement...............................................    29

                                APPENDIX

Joint Statement for OSD, Army & Navy Casualty & Mortuary Affairs.    52
Statements of Mary Strange, Terry Pittman, Ida Pittman, Charlie 
  Strange and Doug Hamburger, submitted by Rep. Chaffetz.........    64
DD Form 93 submitted by Rep. Chaffetz............................    79
News Release Aug. 11, 2011: DOD Identifies Service members killed 
  in CH-47 crash.................................................    83

 
            AFGHANISTAN: HONORING THE HEROES OF EXTORTION 17

                              ----------                              


                      Thursday, February 27, 2014

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Lummis, Mica, Duncan, 
Amash, Woodall, Tierney, Maloney, Lynch, Speier, Kelly, Welch, 
and Grisham.
    Also Present: Representatives Rigell and Fortenberry.
    Staff Present: Brien A. Beattie, Professional Staff Member; 
Adam P. Fromm, Director of Member Services and Committee 
Operations; Linda Good, Chief Clerk; Frederick Hill, Director 
of Communications and Senior Policy Advisor; Mitchell S. 
Kominsky, Counsel; Jim Lewis, Senior Policy Advisor; John Ohly, 
Professional Staff Member; Laura Rush, Deputy Chief Clerk; 
Sarah Vance, Assistant Clerk; Sang H. Yi, Professional Staff 
Member; Jaron Bourke, Minority Director of Administration; 
Devon Hill, Minority Research Assistant; Jennifer Hoffman, 
Minority Press Secretary; Peter Kenny, Minority Counsel; Chris 
Knauer, Minority Senior Investigator; Julia Krieger, Minority 
New Media Press Secretary; Elisa LaNier, Minority Deputy Clerk; 
Juan McCullum, Minority Clerk; and Dave Rapallo, Minority Staff 
Director.
    Mr. Chaffetz. Committee will come to order. Thank you all 
for being here. I--this hearing, Afghanistan, Honoring the 
Heroes of Extortion 17, has been extraordinarily difficult to 
organize this hearing, because it's proved nearly impossible to 
effectively solicit and subsequently meet the needs and wishes 
of every family member and loved one that was onboard Extortion 
17.
    I want to assure the families that this committee has 
questioned the Department of Defense officials on the full 
spectrum of the mission, to include extremely sensitive and 
highly classified information, in an effort to fully understand 
the events pertaining to the tragedy that unfolded that day. We 
have tried our best to treat all the families' interests 
equally, knowing that there's a wide range of spectrum and 
perspectives, given the sheer number of people and families 
that are engaged in this.
    Two of these--two of our--America's best happen to be from 
my congressional district in Utah. And a number of members 
obviously care deeply about this issue. You're going to see 
members coming and going in this hearing. We have lots of 
different things happening here in Congress at the same time.
    Some families may claim we have not done enough by not 
allowing classified or highly graphic information to be 
discussed today and others may claim that any discussion about 
Extortion 17 is counterproductive and opens old wounds. If I 
did not believe that the majority of the families wanted a 
forum like this to exist, we would not be conducting this 
hearing. It is extremely sensitive. There are things that we 
cannot and will not be discussing in this hearing, given the 
classified nature. I hope people will understand that. That's 
the way the United States of America operates. And our first 
and foremost concern is to make sure that we protect the 
ongoing lives and operations of the United States military. But 
I will say that the United States is different than the rest of 
the world. We are open, we are transparent, we are self-
critical, and we do so in the spirit of making things better.
    I'd also--so today as we start this, I'd like to welcome 
Ranking Member Tierney of the subcommittee, particularly 
Congressman Lynch, who's shown a great deal of interest in 
this. I want to welcome Mr. Rigell, who's spent a lot of time 
on this. Although not a member of this committee, I appreciate 
his presence here today.
    On August 6th of 2011, Taliban insurgents killed 30 
American servicemen, including 17 Navy SEALs, making it the 
largest single day loss of life in naval special warfare 
history and the largest single day loss of life during the war 
in Afghanistan. The events that unfolded that night are 
commonly referred to as Extortion 17, which is the call sign 
for the helicopter transporting the special operations 
personnel.
    We are here today at the request of many of the families of 
the fallen heroes aboard Extortion 17 to obtain answers to 
their questions where answers can be found. This hearing also 
serves to honor the 30 American servicemen aboard Extortion 17 
and their families. I've traveled to Afghanistan numerous 
times, visited with the servicemen and women there, and have 
nothing but the greatest respect and admiration that are 
serving our country.
    Over the course of many months, the committee has had an 
open and ongoing dialogue with many of the families and 
servicemen, families of the servicemen aboard Extortion 17. In 
an effort to find answers to many of the outstanding questions 
regarding Extortion 17, some concerning the operation, others 
regarding postmortem events, we have welcomed the families to 
communicate their thoughts and concerns with the committee.
    In addition to attending a funeral of one of the servicemen 
aboard Extortion 17, I personally met with some of the families 
of the 30 servicemen to hear their concerns and listen 
carefully to what questions they had about the tragic event.
    I offer my deepest condolences to all the families who've 
lost a loved one as a result of this incredibly tragic event. 
My heart also goes out to the bigger, broader military family 
and community, because I know how much they care about their 
colleagues and friends and people that they serve with.
    It is important as a Nation we not forget the service of 
all the men and women who serve this country. They've served us 
in the past, they're serving us now, and they will serve us in 
the future.
    In advance of this hearing, the committee staff has invited 
and encouraged families to submit written testimony for the 
record and to pass on some of their questions that may be 
directed to the Department of Defense by Members of Congress. 
There is an order and a process to this, which I'm proud to 
help facilitate.
    Because the committee takes the concerns of families with 
great sincerity, for more than 8 months we have been reviewing 
the facts surrounding Extortion 17. The committee has performed 
an extensive review of almost 2,000 pages of unclassified 
material related to Extortion 17, the committee has also met 
with independent sources with direct and indirect knowledge of 
the facts surrounding Extortion 17.
    To address some of the unanswered questions, the committee 
received briefings, classified and unclassified, on the 
operational component leading up to the loss of the 30 
servicemen and eight Afghan nationals, and on the postmortem 
handling of the 30 American servicemen on Extortion 17.
    I'd like to take a moment to thank the Department of 
Defense for their cooperation with the subcommittee in 
providing answers to many of the questions I have asked and 
others have asked of the Department. The facts surrounding 
Extortion 17 are terribly heartbreaking, and we appreciate the 
candor and willingness to answer difficult questions from both 
sides of the aisle. The committee has reviewed these facts in a 
bipartisan way, we have had open, transparent dialogue with our 
colleagues on both sides of the aisle.
    Today the committee will be specifically looking into 
whether the remains of U.S. personnel were treated with the 
proper respect they deserve, and whether Department of Defense 
procedures were followed and sufficient. I strongly believe 
that every fallen hero deserves to be treated with the proper 
amount of dignity and respect. If there are concerns calling 
into question the Department policies, we are here today to 
have productive discussion on how we can ensure the proper 
treatment of the remains of servicemen.
    I'd like to emphasize, it is the intent of the subcommittee 
to obtain all the available information about the events 
following the crash of Extortion 17, dispel potential myths, 
and to learn from the event so we can assure that proper 
reforms are implemented.
    I want to take a moment to recognize the dedication of our 
loyal servicemen to this country in maintaining the security 
and bedrock of our principles. In this vein, I'm greatly 
saddened that 1,795 U.S. military personnel have given their 
lives to serve in Afghanistan since September 11th, 2001, and 
19,665 have been wounded in action during that same time frame. 
We must pay respect to those men and women and their families 
and thank them for their service. I personally believe as a 
community, as a Nation, we can do more to help and support and 
recognize and honor them.
    At that same time, I want to commend the witnesses, three 
of which are dressed in uniform and two retired officers for 
their service to this country and thank them for appearing 
before this subcommittee on a very difficult topic. Their 
heart's in the right place, having met with them and chatted 
with them. They serve our Nation. We honor them and we thank 
you for what it--in attending what is obviously a very 
difficult topic, but we appreciate your service and we thank 
you for being here today.
    With that, I'd now like to recognize the distinguished 
Ranking Member, the gentlemen from Massachusetts, Mr. Tierney, 
for his opening statement.
    Mr. Tierney. Thank you, Mr. Chairman. Before we begin 
today, I think it's extremely important that we honor the lives 
of all of our fallen heroes for the untold contributions that 
they've made to the service of this country and to the families 
who mourn their losses. We need to remember that not only did 
we lose 30 great warriors that night in the Afghan battlefield, 
but the burden is now carried by the families who lost sons and 
fathers, brothers and husbands.
    I'd also like to acknowledge that some of the families are 
here with us today. For you and the other families who couldn't 
attend today's proceedings, I want to express my profound 
gratitude for your sons' service and also express my 
condolences for your loss.
    Mr. Chairman, I understand that there are some out there 
who strongly believe this hearing is necessary, and there are 
other families and their representatives who have contacted the 
subcommittee and expressed great concern about today's hearing. 
They've asked for privacy and they seek closure. So I realize 
that some have more questions about what happened; we should 
acknowledge that not all of the families affected with this 
tragedy support these proceedings. And I have confidence, Mr. 
Chairman, that you will make all efforts to conduct today's 
discussion with both dignity and fairness.
    I think it's also important to acknowledge that earlier 
this week, senior officials from the Pentagon provided an 
extensive briefing to members and staff, where many questions 
were asked and answered about the topics that we may not be 
able to discuss at today's hearing. We also received an 
unclassified briefing last week on some of the post operations 
concerns that you do intend to discuss today. Pentagon 
officials provided answers to many questions, and I look 
forward to their testimony today, which I hope may provide some 
answers to those that are still seeking them.
    Mr. Chairman, I would also like to acknowledge the 
distinguished men and women on today's panel. These officials 
also serve their country. Some have even served in harm's way 
and others served as one of the final caretakers of our fallen 
heroes. During the briefings last week, we heard from these 
officials just how humbling their work truly is, and it is not 
made it any easier by the fact that the fallen heroes are also 
their comrades.
    Finally, Mr. Chairman, I want to conclude by noting that to 
date, we have lost 2,175 great Americans during the war in 
Afghanistan and tens of thousands and others who have been 
wounded and severely debilitated.
    While we are here today to discuss the events surrounding 
the tragic deaths of 30 brave Americans, let's also take the 
opportunity to acknowledge the thousands of men and women who 
have sacrificed and paid the ultimate price in their service to 
this country. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Chairman, I have a unanimous consent request. 
I would request, Mr. Chairman, that after your remarks and the 
remarks of the ranking member, that we insert in the record of 
this hearing at this point the names of those individuals, 
servicemen who lost their life in the C-47 Chinook helicopter 
disaster. And I would ask that that be printed immediately 
after your remarks.
    Mr. Chaffetz. Without objection, so ordered.
    I'd like to also thank again the members of our--of our 
subcommittee for attending today. I'd also like to recognize 
Mr. Fortenberry from Nebraska, who's been very active and 
involved and engaged in this issue, and I appreciate his 
presence here today.
    I would also remind members that they may have 7 days to 
submit opening statements for the record. That would be all 
members, even those that do not serve here on our committee.
    It's now, at this point, I'd like to recognize our panel. 
And we have members representing the Pentagon, and we have Mr. 
Garry P. Reid, who's the Principal Deputy Assistant Secretary 
of the Defense For Special Operations and Low Intensity 
Conflict at the United States Department of Defense; Ms. 
Deborah Skillman, is the director of Casualty and Mortuary 
Affairs at the United States Department of Defense; we have 
Colonel John Devillier. Devillier? Devillier--my apologies--is 
the Commander of Air Force Mortuary Affairs Operations at the 
United States Department of Defense; Colonel Kerk Brown is the 
director of Army Casualty and Mortuary Affairs--Mortuary 
Affairs Operations Center at the United States Department of 
Defense. And we have Commander Aaron Brodsky who is the 
director of Navy Casualty Services at the United States 
Department of Defense.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. If you'd please rise and raise your right 
hands. Do you solemnly swear or affirm that the testimony 
you're about to give will be the truth, the whole truth and 
nothing but the truth? Thank you. You may be seated. Let the 
record reflect that the witnesses all answered in the 
affirmative.
    As we have discussed with the Department of Defense, I want 
our audience, and particularly the families, to know that there 
are some limitations in things that we can discuss. As I've 
mentioned, there are certain classified information, certain 
things about the actual operation itself that we cannot and 
will not in a non-classified setting discuss. This is for the 
safety and security of the ongoing operations of our U.S. 
military. It is imperative that we do this so that we do not 
allow insurgents and other enemies of the United States of 
America to gain an operational advantage. We will adhere to 
that.
    I will assure you that as representatives, we have had 
classified briefings, and if we have to have additional 
classified briefings, we will, so members can ask their 
questions. The Department of Defense and the witnesses here 
today understand this.
    We are--while we have five witnesses here today, I believe 
we're going to have three opening statements, so we're going to 
give great liberty to the fact that some of these have been 
combined. And I believe we're going to start first with Mr. 
Reid. Please go ahead. Proceed.


                       WITNESS STATEMENTS

                    STATEMENT OF GARRY REID

    Mr. Reid. Thank you, Chairman Chaffetz, Ranking Member 
Tierney and distinguished members of the subcommittee, thank 
you for the opportunity to appear before you today. I'm here in 
the capacity as a senior defense official with oversight of our 
special operations, but I'm also here, and I bring to that job 
my background of 28 years of service in the U.S. Army in the 
Special Operations Forces working very closely with the 
organizations that we'll be talking about today. I'm joined by 
a team of civilian and military subject matter experts to honor 
the fallen of Extortion 17 and to answer your questions.
    The downing of Extortion 17 was a catastrophic and 
unprecedented tragedy for our Nation. As you indicated, 
Chairman, sadly since 2001, there have been 1,795 U.S. military 
personnel killed in action in Afghanistan. Any loss of our 
warriors is a grim reminder of the tragedies of war, the 
violence of combat action, and the perilous lives our forces 
live each day in defense of our Nation and our values.
    Our sadness for their loss, however, cannot be compared to 
the pain and anguish of our Gold Star families, some of whom 
are here today. Their sacrifices cannot be measured and their 
losses can never be replaced. We are deeply humbled to be in 
their presence, and hope our testimony can answer their 
questions, and in some small measure, hope to bring them an 
additional amount of comfort.
    Above all, we are here to pay respect to our fallen heroes 
and pay tribute to their ultimate sacrifice and honor their 
service.
    Again, chairman, as you indicated, on August 5th, 2011, the 
brave men of Extortion 17 embarked on an important mission, as 
they had done so many times before. They were part of a highly 
capable task force that had conducted more than 2,800 
operations in Afghanistan in the previous 12 months using 
tactics and methods proven in over 10 years of combat against 
the Taliban and Al Qaeda in Afghanistan.
    Tragically, as Extortion 17 was nearing its landing zone, 
Taliban fighters, hidden in a building, fired two or three 
rocket-propelled grenades at close range, leaving the pilot no 
chance to perform evasive maneuvers. One rocket struck a rotor 
blade, causing the aircraft to crash almost instantly.
    The recovery operation commenced immediately and lasted 4 
days. All of the fallen were recovered within hours, and 
ultimately nearly all of the wreckage was recovered. Contrary 
to some unofficial statements, there was no flight data 
recorder, no so-called black box. This equipment is not 
standard on this aircraft.
    All of the fallen were taken to Bagram Air Base. A solemn 
memorial service marked the beginning of a dignified and 
respectful journey home for the brave men of Extortion 17. A 
U.S. military chaplain paid tribute to the fallen, as did both 
the commander of the U.S. task force and the Afghan special 
operations unit involved in the crash.
    An investigation was launched immediately, completed within 
30 days, and I'd just like to highlight some of the results and 
conclusions of that investigation. We believe our forces 
employed sound tactics in planning and executing their fateful 
mission. Their high tempo operations paced over the previous 
months was essential to maintaining pressure on the enemy, and 
their success in past operations validated the effectiveness of 
their tactics.
    We believe the attachment of the Afghan soldiers enhances 
the potential for mission success. This specially selected 
group attached to our task force make invaluable additions to 
their capabilities, having superior knowledge of the operating 
environment, the cultural differences, and of course, the 
native language capability.
    We do not believe the special operations variant of the 
Chinook and air crew would have fared any differently than 
Extortion 17 on that night. There is no technology advantage 
inherent in the special operations model that would have 
protected it from the rocket that downed the aircraft.
    We recognize, however, that these helicopters are 
vulnerable to rocket-propelled grenades. Although there is 
currently no proven system to counter that particular weapon 
and that particular enemy tactic, in the 2\1/2\ years since 
this tragic loss, we have fielded 24 different survivability 
and safety equipment upgrades on over 2,000 of our military 
aircraft, with the Chinook CH-47 receiving as many as four of 
these individual upgrades, and we continue our efforts with the 
support of Congress to fund the research and development to 
develop the countermeasures that we would need to protect 
against the RPG. But I have to say no advances in technology, 
or any change in the way we operate will bring back our fallen 
heroes or ease the pain of their loved ones. We honor their 
sacrifices by continuing to dedicate ourselves to defending the 
nation from attack, upholding our values as Americans and 
remembering the families left behind. Through our enduring 
commitment to these Gold Star families, we will cherish the 
sacrifices of the fallen and keep them forever in our hearts.
    Chairman, Ranking Member, I stand ready to address your 
questions. Thank you very much.
    Mr. Chaffetz. Thank you.
    [Prepared statement of Mr. Reid follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chaffetz. Ms. Skillman.


                 STATEMENT OF DEBORAH SKILLMAN

    Ms. Skillman. Chairman Chaffetz, Ranking Member Tierney, 
and distinguished members of the committee, I want to thank you 
for the opportunity to appear before you today to answer your 
questions regarding our assistance to surviving family members 
of these 30 brave heroes who were killed in action on August 
6th, 2011.
    I am the program manager for Casualty and Mortuary Affairs 
within the Office of the Secretary of Defense. In this 
capacity, I am responsible for providing uniform policies and 
procedures to the military departments for notifying and 
assisting the next of kin of service members who have become a 
casualty. My office is also the focal point for the 
coordination of all matters related to our Mortuary Affairs 
programs.
    As a little background on myself, I am a retired army 
colonel with over 12 years experience working in this 
particular program.
    The Department holds casualty and Mortuary Affairs program 
among our most solemn responsibilities to our service members, 
our surviving family members, and to our Nation. A fundamental 
element of military culture and tradition is that we hold our 
fallen in the highest esteem, treat their remains with highest 
reverence and provide their surviving family members the 
highest level of care and continued support. My office is 
responsible for promulgating casualty and Mortuary Affairs 
policies that reflect these core values, and we work in 
coordination with the service members and the colleagues, my 
colleagues that you see at the table here today, to ensure that 
the intent of our policies is reflected throughout all casualty 
and mortuary tasks and processes.
    If I could just take a moment about some of the testimony 
you will hear today and some common terminology that my 
colleagues will be using. We will be discussing the DD Form 93. 
This is the record of emergency data. And I want to note that 
the DD Form 93 is the voice of the service member upon his or 
her death. This form is completed by all service members at 
regular intervals during their military service, and informs 
the casualty offices of whom the service member wishes to be 
notified in the event he or she becomes a casualty.
    The form also indicates whom the service member wishes to 
receive certain death benefits, and it allows the service 
member to designate the Person Authorized to Direct 
Disposition, or the PADD. It's worth noting that the service 
member can select anyone as the PADD, not necessarily a family 
member. And the PADD is the single person that the casualty 
office may take direction from regarding the disposition of the 
service member's remains.
    Before I pass it over to my colleague, Colonel Devillier, 
sir, my colleagues in the Army and the Navy Casualty Office 
have also prepared a statement, and I request that they be 
allowed to provide that for the record.
    Ms. Skillman. Again, I want to thank you for the 
opportunity to appear before you today, and it's my honor and 
my privilege to serve in this capacity, and I hope today we'll 
be able to address your concerns.
    Mr. Chaffetz. Thank you. And thank you for your service and 
your caring. And, of course, we will enter that into the 
record. Colonel?

              STATEMENT OF COLONEL JOHN DEVILLIER

    Colonel Devillier. Chairman Chaffetz, Ranking Member 
Tierney and distinguished members of the subcommittee, I 
appreciate the opportunity to appear before you today to 
discuss the process of disposition of our fallen heroes from 
Extortion 17.
    Since March 2012, I have had the honor and privilege to 
serve with some of the finest soldiers, sailors, airmen, 
marines and civilians who work behind the scenes providing 
dignity, honor and respect to our Nation's combat fallen as 
well as care, service and support to their families.
    While the port mortuary has been associated with Dover Air 
Force Base, Delaware, since the 1950s, the organization I 
command was activated in early 2009 in response to Department 
of Defense directed changes surrounding authorized family 
travel to Dover Air Force Base and media access to dignified 
transfer. My organization has both Air Force specific rules, 
along with being the lead service component for dignified 
transfers and effecting final disposition of our fallen as 
directed by the Person Authorized to Direct Disposition, the 
PADD.
    Since the implementation of policy changes in April 2009, 
team Dover has welcomed home over 1,800 of our Nation's fallen 
and supported over 8,700 of their families.
    The events surrounding the return of the fallen from 
Extortion 17 are seen as a watershed for our operation at Dover 
in terms of mass fatalities. Team Dover has supported well over 
800 family, friends and unit members, as well as more than 40 
distinguished visitors desiring to pay their respects to these 
brave heroes.
    While I was not present for this event, it was a monumental 
undertaking for the entire team in terms of support. As with 
every fallen service member who arrives at Dover, the fallen 
from this event were taken into the medical-legal custody of 
the Armed Forces medical examiner system for scientific 
identification, which may include fingerprinting, dental and/or 
DNA testing followed by a medical autopsy. Upon the scientific 
identification, the chain of custody for the fallen is then 
passed to my organization to effect final disposition, as 
directed by the PADD.
    For this incident as a whole, my organization effected 
these disposition instructions for our 30 heroes, eight of 
which included written requests for cremation from the PADD. 
For those eight cases, four were cremated at the port mortuary, 
and four were cremated at their final resting place.
    Again, we consider this incident a watershed moment and we 
have made a number of changes in terms of our in place support 
mechanisms. In January 2013, we opened a new command and 
control facility to enhance communication between the branches 
of service and my organization. Additionally in February 2013, 
a new chapel was opened on Dover with one-third of the space 
dedicated to our operation in terms of facilities to further 
support families.
    In my nearly 21 years of active military service, I have 
never served in a more honorable or humbling mission. The men 
and women who work tirelessly behind the scenes under my 
command see the worst results of conflict. Not only do they 
honor the fallen, they serve the families, who are often 
experiencing the worst moments of their life, and these quiet 
professionals ask for nothing in return. I'm proud to serve as 
their commander.
    Thank you for your time this morning and your strong 
support for the men and women of the Department of the Air 
Force.
    Mr. Chaffetz. Thank you, Colonel.
    [The statement of Colonel Devillier follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chaffetz. Colonel Brown.


                STATEMENT OF COLONEL KERK BROWN

    Colonel Brown. Chairman Chaffetz, Ranking Member Tierney 
and other distinguished members of the subcommittee, thank you 
for the opportunity to represent the United States Army, and I 
am humbled to provide testimony in honor of the service members 
of Extortion 17.
    I have served as the director of the Army Casualty & 
Mortuary Affairs Operations Center since July 2012. The mission 
of the Casualty & Mortuary Affairs Operations Center is to 
execute the full spectrum of Army Casualty & Mortuary Affairs 
for present and past conflicts. In this role, the Casualty & 
Mortuary Affairs Operations Center provides policy and 
direction to 33 casualty assistance centers around the world, 
develops standardized casualty assistance and casualty 
notification training, provides notification, casualty 
assistance and casualty management for injured, ill, missing 
and deceased personnel, and operates the joint personal effects 
depot at Dover Air Force Base for all of the services.
    On August 6th, 2011, five soldiers were killed in action in 
support of the Extortion 17 mission. The notification and 
assistance provided to the soldiers' next of kin were completed 
in accordance with policy. The Army recognizes that people are 
the Army, and our dedicated and talented force is the reason 
the United States Army is second to none. The Army remains 
committed to honor our Nation's commitment to its soldiers and 
the family of deceased, injured, ill and unaccounted for 
through compassionate and responsive support.
    Thank you for your continued support to the United States 
Army, and I look forward to answering your questions.
    Mr. Chaffetz. Thank you, Colonel.

              STATEMENT OF COMMANDER AARON BRODSKY

    Commander Brodsky. Chairman Chaffetz, Ranking Member 
Tierney, other distinguished members, good morning. I'm 
Director of Navy Casualty & Mortuary Affairs at the Navy 
Personnel Command in Millington, Tennessee. Thank you also for 
this opportunity.
    I've been director of Navy Casualty since August 2013. My 
office is lead for the Navy Casualty's assistance program, 
which includes next of kin verification, execution of proper 
and timely notifications, and benefits and entitlements 
authorizations. We do this across three command tiers: Navy 
Personnel Command, consisting of program management, 
entitlements execution and casualty aftercare; Commander Naval 
Installations Command, which is 24/7 operations through 
regional operations centers; and the Casualty Assistance Calls 
Officer, or CACO, training and assignment, and, of course, our 
network of more than 6,000 trained CACOs worldwide.
    I'm here today to discuss navy protocol and procedures with 
regards to casualty assistance, and I will also discuss the 
manner in which casualty assistance was rendered to the 
families of the 22 Navy personnel who perished on Extortion 17.
    When the Navy first learned of the Extortion 17 incident on 
August 6th, 2011, all established protocols and procedures were 
initiated, next of kin were verified, and regional CACOs were 
assigned. Within a few hours, the extent of this casualty 
became fully known. At this point, Naval Special Warfare 
Development Group and Special Operations Command teamed with 
Navy Casualty, and together trained CACOs and command 
representatives notified each next of kin and provided follow-
on assistance to all the families and their authorized 
beneficiaries.
    The special warfare community is unfortunately well versed 
in casualty assistance, and within the first 24 hours, they 
established a casualty assistance and call center and created 
casualty teams for each family. This command and control 
structure complemented our own and provided not only an 
increase in capability and capacity, but also lent their 
expertise and professional insight.
    To echo my colleagues, at the end of the day, we all want 
the same thing: timely and compassionate care for our grieving 
Gold Star families. The assistance rendered to Navy families is 
professionally and compassionately conducted, always 
prioritizing their needs for the acute sensitivity for the 
profound grief they experience.
    On behalf of Navy leadership and the men and women in the 
United States Navy and their families, I thank you as well for 
your commitment to these heroes of Extortion 17, and I look 
forward to your questions.
    Mr. Chaffetz. Thank you, Commander. Appreciate it.
    I now recognize--I have actually some unanimous consent 
requests. The first request I have is to place into the record 
the statements of Mary Strange, Terry Pittman, Ida Pittman, 
Charlie Strange and Doug Hamburger.
    Mr. Tierney. No objection.
    Mr. Chaffetz. Without objection, so ordered. I also ask 
unanimous consent to enter into the record DD Form 33, that was 
mentioned in part of the testimony. Or 93, sorry. Without--
without objection?
    Mr. Tierney. No objection.
    Mr. Chaffetz. So ordered. I'll now recognize myself for 5 
minutes.
    Mr. Reid, without touching into the--into the classified 
information, what can you tell us about why this mission was 
happening and what they were trying to do, why they were 
engaged in this? And, again, I recognize the limitations you 
have no classified setting, but if you could set the context, I 
would appreciate it.
    Mr. Reid. Thank you, chairman. The objective on this night 
was to capture a senior Taliban commander operating in a valley 
that cuts between two main highways south of Kabul, the capital 
of Afghanistan. The strategic relevance of this valley is it 
provides the Taliban with a sanctuary and a jumping-off point. 
Their goal is to conduct spectacular attacks in Kabul, to 
terrorize Afghans that support the government and support the 
coalition, and to attack our--our bases there. That's the 
strategic context of this particular mission, as a part of a 
broader campaign, as you know, chairman, to dismantle and 
defeat these Taliban organizations throughout Afghanistan, to 
allow the government forces to establish a security foothold 
and transition out of U.S. combat actions, as we will at the 
end of this year, into Afghans providing security.
    Mr. Chaffetz. Now, one of the more troubling and 
sensational stories that we have seen along the way is the idea 
that upon this--the crash of the helicopter after it was shot 
is that the black box was supposedly washed away in a flash 
flood, which defies--I mean, it's really hard to believe. We 
have talked about this, but could you please respond to that 
story, because it has been out there fairly--fairly 
pervasively.
    Mr. Reid. Yes, Chairman. Thank you. This valley, as I said, 
in--situated in between these mountains is part of a drainage 
system that feeds over into the central highlands of 
Afghanistan over the Uruzgan Province. The elevation in this 
particular valley is around 7,000 feet, but it is a drainage 
area for high mountain showers and snow melt. It's actually a 
very fertile valley with a large amount of agriculture.
    On the night of August 6th, as we were one day into the 
recovery effort, a flash flood swept through the valley. The 
aircraft, upon crashing, landed in a dry creek bed. That creek 
bed filled with up to 4 feet of water very quickly during the 
recovery effort, and some of the material from the crash was 
washed about 100 yards downstream.
    We--we have a photograph board. If we could light like up--
--
    Mr. Chaffetz. If you can like that up. Sure.
    Mr. Reid. --to enter that, sir, we can show the before and 
after.
    Mr. Chaffetz. I think we're just going to show the flash 
flood.
    Mr. Reid. Yes.
    Mr. Chaffetz. We're not going to show the actual wreckage 
itself.
    The idea that the black box washed away, was there a black 
box?
    Mr. Reid. No, sir, not--as I indicated, there is a device 
attached to the engines that records engine performance. It's--
the engines are new, in fact, the same engines that are on the 
other Chinooks, the modern engines, but the airframe itself is 
an analog aircraft. There is no source of digital data.
    Mr. Chaffetz. There is no traditional so-called black box?
    Mr. Reid. That's correct, sir.
    Mr. Chaffetz. Even though there was a flash flood, and 
there are other photos as well that----
    Mr. Reid. Yes, sir.
    Mr. Chaffetz. Publicly, this is not something we're 
revealing and showing for the very first time. This is 
something that has been--is out there and widely available.
    Can I--Ms. Skillman, I want to talk about the ramp 
ceremony, because the other point--one of the other major 
points of contention as I've talked to a lot of families is 
that there is a video of the service that was done in 
Afghanistan. My understanding is--I have two questions about 
this, two concerns. One is why it was videotaped. My 
understanding is that is not what current DOD policy is. My 
question is, why did that happen? Did it happen? Why did it 
happen? And who was the person who was making the--who 
participated in that--in that service, because there were some 
very concerning comments that were made by the person who was 
representing the Afghans who were killed that night.
    Ms. Skillman. Sir, thank you for the question. I--I cannot 
address who was speaking at--at the memorial service at that 
particular ceremony in Bagram.
    As we understand, the commanders conducted a memorial 
service, which is within policy. We expect our commanders to do 
that. And their interpretation of our policy was that the 
videotape was--was allowed. However, we have just learned that 
they recently re-published their policy to reflect our 
considerations for the next of kin and wanting them to consent 
to any videotaping of their next of kin. So their regulation 
was revised in February of 2013, which we have just recently 
learned, to reflect that current policy.
    Mr. Chaffetz. I have more questions. My time is expired. 
I'll now recognize the gentleman from Massachusetts, Mr. 
Tierney.
    Mr. Tierney. Thank you for that.
    Mr. Reid, in your written remarks, you provide a 
significant amount of detail about the operation of Extortion 
17 and, for instance, you mention the Navy SEAL task force and 
the U.S. Army aviation group, and I quote, ``spent weeks 
conducting operations nearly every other night.''
    You stated the Afghan soldiers deployed with the American 
Special Forces, and I quote again, ``were an essential part of 
the package. They are trained to move with our forces to the 
target, and when tactical conditions allow, initiate operations 
by calling out enemy forces. This tactic was highly successful 
over a period of years. Hundreds of operations were conducted 
without firing a shot.''
    You then say the rocket-propelled grenade that brought down 
Extortion 17, ``left the pilot with less than one second to 
identify the threat, react and maneuver the 40,000-pound loaded 
helicopter. Evasive action was not possible.''
    And regarding the flight route and the landing zone for 
Extortion 17, you wrote, ``This information was not provided to 
anyone outside the SEAL and Army aviation task force commands. 
Because the mission was developed and approved after the ranger 
assault had begun, there was no coordination with Afghan 
officials.''
    And finally you state you believe, ``the SEAL task force 
employed sound tactics in planning and executing their fateful 
mission, and that you do not believe the rules of engagement 
restricted our forces from engaging the enemy.''
    So, Mr. Reid, with all--we all believe that the downing of 
Extortion 17 was a tragic loss of life, there's no doubt about 
that, but how would you characterize the operation that day? 
Was it hastily or poorly planned as a mission? Were the 
appropriate teams and equipment used? Was the mission 
compromised?
    Mr. Reid. Thank you, Congressman. The mission was planned. 
This particular--the SEAL mission was planned in the course of 
the ranger mission, and that planning process is deliberate. 
And what I mean is their role in this operation was a standby 
force should there be a necessity to deploy a second force.
    The way this worked at that time, they have two forces. 
They have the SEALs and the rangers. And typically, every other 
night, every third night, we do an operation, one would be the 
lead, one would be the standby, and that was the conditions 
this night. So there was always the condition and the intent to 
deploy this force based on the tactical circumstance.
    And as I indicated, sir, the circumstances were such that 
the enemy appeared to evade the initial attack and seek 
sanctuary in the valley in another location. The SEAL mission 
was constituted to come in from the other direction and 
intercept that Taliban leader.
    We do not believe the mission was compromised. There is a 
coordination process with Afghan leaders for these missions 
that was put in place years prior to mitigate against claims of 
civilian casualties in special operations that were not 
coordinated. But on this particular event, understanding the 
SEAL piece was--was done during the operation, there was no 
external coordination, so there was no possibility of 
information going up the chain and somehow coming back out to 
the Taliban.
    We believe the enemy positioned himself in that building. 
Whether or not he knew anyone was coming in, he was in a very 
advantageous place tactically to strike the aircraft as it 
approached.
    Mr. Tierney. Thank you. Thanks, Mr. Reid.
    So we just talked a little bit about the concern we had for 
the treatment of the--of our fallen heroes. Before the bodies 
were even to reach Dover, they had a transfer ceremony at the 
Bagram Airfield. That ramp ceremony was conducted to honor 
those dead servicemen.
    Ms. Skillman, it's my understanding that the ramp 
ceremonies are customary, and that they're solemn and 
respectful events. Can you explain why the ramp ceremony--or 
what it is and why it occurred?
    Ms. Skillman. Thank you, sir. I--I can't address what 
happened in theater, however, that we do--commanders routinely 
conduct what we would consider a memorial service for their 
fallen, which is exactly what happened on that day.
    Mr. Tierney. And that's, as I say, customary?
    Ms. Skillman. Yes, sir, it is.
    Mr. Tierney. And it's not customary generally to videotape, 
as you mentioned to Mr. Chaffetz's question?
    Ms. Skillman. No, sir, it is not. It was our intent that 
next of kin consent to any still photography or videography of 
their loved ones. Primarily the PNOK is responsible for making 
that consent, the Primary Next of Kin; however, there's a 
misinterpretation of our policy, and we have clarified that, 
and CENTCOM has recently revised their policies, as I stated 
earlier.
    Mr. Tierney. Good. Thank you. Yield back, Mr. Chair.
    Mr. Chaffetz. Thank you. I now recognize the gentlewoman 
from Wyoming, the vice-chair of our subcommittee, Ms. Lummis, 
for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman. I want to extend my 
appreciation to the next of kin here present of our deceased 
members of the military who participated in the mission that 
brought down Extortion 17. We are grateful for your family's 
service, for your sacrifice, and they will not be forgotten.
    I--I also want to comment, Mr. Chairman, on an old 2009 HBO 
movie called ``Taking Chance'' that was a documentary about a 
fallen Iraq Veteran, a Marine by the name of Chance Phelps, and 
it illustrated the treatment that the military provides to our 
servicemen and women once they have been killed in action, and 
they are--their remains are being returned to their homes. 
Chance Phelps, who was the soldier who was killed and whose 
return to my home State of Wyoming is illustrated in that film, 
is someone whose parents I knew. My husband and Chance Phelps' 
father were high school friends and I know his mother very 
well, and how proud we are that the manner in which he was 
treated was so well illustrated by the film and how it 
accurately, we believe, depicted the manner in which and the 
respect with which his remains were treated by the military. So 
I want to commend the work of our military services with regard 
to their very dignified and appropriately respectful treatment 
of those who gave their last measure of human devotion.
    I also would like to follow that up with a question. This 
is for all witnesses. Did the Department follow protocol and 
directions from the servicemen's Person Authorized to Direct 
Disposition of human remains in the case of Extortion 17? 
Colonel Devillier.
    Colonel Devillier. Yes, ma'am. Thank you for that question. 
In all 30 cases, the direction provided by the--the written 
direction provided by the PADD was followed appropriately.
    Mrs. Lummis. And are these records available to reflect 
that for anyone who might wish to use the Freedom of 
Information Act to obtain that information?
    Colonel Devillier. Ma'am, family members can certainly 
request that through FOIA, and they would be redacted according 
to the FOIA rules.
    Mrs. Lummis. Okay. Would anyone else care to offer 
perspective on that question? Thank you.
    What are some of the guidelines for reporting, recording, 
notifying and assisting the next of kin whenever DOD casualties 
are sustained? Once again, I would direct that question to 
whoever wishes to answer. Ms. Skillman?
    Ms. Skillman. Ma'am, thank you for that question. The 
services are directed to provide standardized training for 
their notification officers, their casualty assistance 
officers, and to provide proactive support to family members. 
They get--they will have a dialogue with the family members 
that they are assisting and they will proactively provide them 
with information regarding the circumstances surrounding the 
death as soon as it becomes available and provide them regular 
updates. They will also assist them with the benefits request 
and reports of investigations and then continued follow on 
care.
    Mrs. Lummis. Did the Department follow its policies in the 
case of the families of Extortion 17?
    Ms. Skillman. Ma'am, from our records, there's all 
indication that each of the services followed the policies and 
procedures as prescribed by DOD.
    Mrs. Lummis. Okay. Also for you, Ms. Skillman, how can we 
improve the policies to ensure that families receive all the 
casualty information to which they are legally entitled?
    Ms. Skillman. Ma'am, thank you for that--that question. We 
are constantly improving our program, and it's through forums 
such as this, input from our family members, our veterans 
service organizations, our partner agencies, such as the 
Department of Veterans Affairs that we make continued 
improvements.
    Mrs. Lummis. Thank you. My time has expired.
    Mr. Chaffetz. Thank the gentlewoman. Now recognize the 
gentlewoman from New York, Ms. Maloney, for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman and Mr. Ranking 
Member, and thank you to all the panelists. And before I ask my 
question, I want to join with all of my colleagues and all the 
members on this panel to acknowledge the sacrifice made by the 
fallen heroes as well as the families, some of whom are here 
today.
    And I would like to go back, if I could, to the questioning 
on the flight recorder, or the so-called black box, and I'd 
like to ask Mr. Reid, and thank you for your public service. My 
brother also served in the Special Forces with the Army, and 
we're very proud of the work of that division for our country. 
Did you--I believe you answered the question from the chairman 
that there was no black box. That's correct, that there was no 
black box?
    Mr. Reid. Yes, ma'am, that's correct.
    Mrs. Maloney. Well, I want to ask to clarify that. Do other 
CH-47D's have a black box?
    Mr. Reid. No, ma'am. The aircraft is not a digital--does 
not have a suite of digital electronics. It has gauges, analog 
gauges. Those gauges do not provide you with the ability to 
withdraw, extract digital data that you could record.
    Mrs. Maloney. Now, today there was a photograph of a flash 
flood that we saw earlier, but I've received some 
correspondence to my office that suggested that there was not a 
flash flood, so I'd like to clarify that a little more. I 
understand that--that the--that the plane, Extortion 17, 
crashed into a creek bed. Is that correct?
    Mr. Reid. Yes, ma'am, that's correct.
    Mrs. Maloney. A dry creek bed. So can you explain for us 
whether a flash flood occurred in that creek bed? Some people 
allege that it did not occur, so could you clarify if that----
    Mr. Reid. Ma'am, I can clarify, having read the report and 
spoken to individuals involved and seeing the photographs and 
studied the climate data, from my own assessment, I believe 
it's perfectly logical and credible that a flood occurred. We 
had up to 140 people at that site over the period of 4 days, 
about 45 or 50 within an hour. We never left that site until 
everything was recovered. Multiple accounts and, again, 
photographs show the water in the creek that was not there on 
the first day. It happened on the night of the 6th of August, 
ma'am.
    Mrs. Maloney. So did the flash flood complicate the 
recovery?
    Mr. Reid. It halted the efforts temporarily, because we had 
to move people to higher ground. But as these occur, even in 
our own desert southwest area, they--they come very quickly 
without warning and they recede often just as quickly. As you 
saw in the photo, though, there was still some residual water, 
but the majority of the wreckage had been recovered at that 
time.
    Mrs. Maloney. So it did complicate it. Do you think that 
going forward, we should have black boxes on CH-47D's? It's an 
older plane, I understand, but should we get a black box on 
them in the future?
    Mr. Reid. I'm aware that the newer--I'm not an aviator, but 
I'm aware of the newer platforms, as the digital platforms are 
fielded, that that is a standard configuration. I've also told 
that it's not technically possible for the analog aircraft to 
replicate that.
    Mrs. Maloney. Okay. Thank you very much.
    Mr. Chaffetz. Thank you. I'll now recognize the gentleman 
from Florida, Mr. Mica, for 5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Reid, this is one of the greatest losses of life that 
we have had in any single incident. I guess that's correct?
    Mr. Reid. This is the largest loss in Afghanistan, sir, 
that's correct.
    Mr. Mica. Okay. What was used? Was it an MH-47, or is there 
a difference between a CH-47D or Chinook helicopter? What was 
used?
    Mr. Reid. The aircraft, Extortion 17, was a model of 
Chinook, the D model, the delta model, CH-47.
    Mr. Mica. And this was a high risk mission?
    Mr. Reid. The risk assessment for the mission profile 
overall as a commander's risk assessment was a high risk 
mission, yes, sir.
    Mr. Mica. And we put our--our men in equipment that 
couldn't be protected. I chaired aviation. We developed--we 
have equipment for commercial airliners that's available. We 
have--I've been in Afghanistan. They only put me on certain 
types of flight equipment that would protect me, particularly 
from RPG's.
    Why would we risk our--a high risk mission on--putting our 
men on this kind of equipment? See, first I want to--I'm 
already concerned you put our people at risk on equipment, and 
we know we have equipment for a high risk mission where they 
wouldn't be put at risk or killed. We do have that equipment, 
don't we, sir?
    Mr. Reid. Sir, specific to this, no.
    Mr. Mica. We do not have equipment in Afghanistan that 
would have allowed some protection against RPG fire, you're 
telling me and this committee?
    Mr. Reid. For this particular, yes, sir, that's correct.
    Mr. Mica. Okay. And this was a high risk mission. Now, you 
also testified that those guys, or whoever fired this, were in 
some building. I'm very concerned about the people that were in 
that building. Don't we assess the risk, and you just said it 
was a high risk mission, that these guys are there?
    I don't know if we can discuss the investigation, the post 
investigation about the Afghans and how much information they 
had about the mission, and if that mission placed those people 
in a position where they can use those RPG's to take down a 
piece of equipment that couldn't protect our people. Now, was 
there a thorough investigation, in your opinion? In August 6th, 
2011, were you there, were you in charge of this mission?
    Mr. Reid. No, sir. I am a civilian----
    Mr. Mica. Okay. Who was in charge of the mission?
    Mr. Reid. U.S. Central Command, sir.
    Mr. Mica. But who was the individual in charge? I think we 
need to be hearing from that individual. I'd like to also find 
out who made the decision. Also, I want to know about the 
investigation and who was investigation--what Afghans had 
information as to this mission.
    Mr. Reid. Sir, no Afghans were provided information on the 
mission. The eight Afghans onboard were part of our team.
    Mr. Mica. And none of the Afghans were briefed in advance 
as to where they were going?
    Mr. Reid. Not outside that team, sir, no.
    Mr. Mica. Again, I would like to see further reports and 
I'd like it made part of a reference to--and if it is 
classified information. But I'm very concerned, one, the right 
equipment wasn't used, we put our people at risk, and also we 
pass--I just do not trust the Afghanis. When I was there, I'm 
telling you, they--they're--they're--everything they do I would 
question, right from the president, who I think is corrupt, and 
the money that we're pouring down that rat hole and then losing 
lives on top of this is sinful.
    But, Mr. Brown, Army Mortuary, is the mess at Arlington 
cleaned up in the way we treat our--the remains of our fallen? 
Are you satisfied with what has been done there? I've never 
seen anything so disgusting as the mess, the misplacement, the 
mistreatment, the use of human remains of our servicemen and 
women as what I've learned took place at Arlington. Is that 
mess cleaned up? Have you followed that?
    Colonel Brown. Sir, that is outside my purview.
    Mr. Mica. How long have you been there, and how long have 
you been in this particular position?
    Colonel Brown. Sir, I have served as a director of Army 
Casualty since July of 2012.
    Mr. Mica. Well, again, you are aware of the mess I am 
talking about?
    Colonel Brown. Yes, sir, I am.
    Mr. Mica. Okay. And can you provide me the names of the 
individuals and put it in the record of who was in charge of 
the remains at that particular time. And then I would like a 
statement from you or from someone in your office that you 
believe that the situation has been cleared up, that the 
remains that were misplaced or abused, that we have also taken 
care of that situation. Can you provide that to the committee?
    Colonel Brown. Sir, I will provide that for the record.
    Mr. Mica. Thank you.
    I yield back.
    Mr. Chaffetz. I now recognize the gentleman from 
Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Along with the other members, I want to offer my 
condolences to all the families of our fallen heros. We are 
deeply appreciative of all of their family service and 
sacrifice.
    I do, as a threshold matter, I want to acknowledge Mr. 
Chairman and our ranking member, Mr. Tierney, the work that you 
have done on this and both staffs, Democrat and Republican, 
working together, the energy and thoroughness with which the 
committee has taken great pains and sensitivity regarding the 
families involved and the issues involved. This is the way 
government is supposed to work, side by side.
    Mr. Reid, I want to ask you about this CH-47D Chinook. You 
know, I have been to Afghanistan nine times. I spent a lot of 
time, you know, in contrast to the earlier gentleman's comments 
that we never put, you know, people that we value on a CH-47, I 
have spent a lot of time on that aircraft. So maybe they just 
don't value me so much. I don't know, but I have spent a fair 
amount of time. And I have also talked to the pilots and crew, 
mechanics about--and they love this aircraft, the CH-47D. They 
say they can perform simple maintenance. It is a very reliable 
aircraft, but there have been a lot of questions in the general 
press about the appropriateness of using the CH-47D, the 
Chinook, in this instance, knowing the topography of the Tangi 
Valley, very tight, mountains on the northern end there. It 
widens out in the south.
    But given the aggregate circumstances here, was this an 
appropriate aircraft to use, or was this something that was 
thrown together at the last minute, because that allegation has 
been out there as well?
    Mr. Reid. Thank you, sir. This was the appropriate aircraft 
for this mission. The choice of this aircraft was tactically 
sound. Other aircraft may have been used, but what could not 
have been used and has been questioned was the Black Hawk. One 
of the issues with the war in Afghanistan is the elevation in 
the mountains, and the Chinook helicopter, which, frankly, in 
my career, we did not use extensively in other conflicts, and 
even in Iraq, the first time or the second time, you see mostly 
Black Hawks. That is a function of the elevation.
    The Chinook--D Model Chinook is the same engines as the 
Special Operations model. The distinction of the Special 
Operations models is the high technology, terrain-following 
navigation system, and the in-flight refueling capability and 
the larger fuel tanks. Beyond that, they are essentially the 
same aircraft. What that means is, for certain mission 
profiles, you must use the MH47. This particular tactical 
mission was about a 15-mile flight on known terrain in clear 
weather. The avionics capabilities of the MH47 were not 
necessary to conduct this mission.
    Both aircraft have the identical survivability. And if I 
may clarify, sir, there is no active technology countermeasure 
to defeat the RPG. The RPG is a rocket-propelled grenade. I 
believe what the gentleman was referring to were for surface-
to-air missiles that have a radar signature or an active 
seeker. We have countermeasures for those. We do not have 
countermeasures for a ballistic rocket-propelled grenade right 
now active. We are researching and trying to do that, and none 
currently exists.
    Mr. Lynch. I appreciate that. Let me ask you, the other 
criticism that has been out there in the press is that the way 
this went down, that there was a several-hour fire fight, that 
there were a number of helos in the area, Apaches and also the 
Ranger team that went in first. And then, when the Chinook came 
in with 30 personnel on board, that it was, you know, 
tactically inadvisable to have a long-term fire fight making 
the insurgents in that area aware of a major operation and then 
having the Chinook come in, you know, a relatively slower 
aircraft and then being exposed to insurgent fire. Can you 
address those allegations?
    Mr. Reid. Yes, sir. Thank you. The investigating officer 
did conclude that the presence of our activity in that valley 
likely put the enemy on a heightened state of alert. That is 
true. The tactical planning and the commanders' decisions to 
mitigate against that were to approach from the opposite 
direction at a low altitude.
    The area was scanned by our overhead platforms. The C130 
had overview of the whole battlefield, the Apaches air weapons 
team scanned the LZ 1 minute prior, confirmed no enemy presence 
on the LZ. The enemy that fired at Extortion 17 remained 
undetected through those scans. We did not detect that enemy, 
and we did not achieve, frankly, the element of surprise into 
the Valley that was planned and anticipated.
    Mr. Lynch. Okay. I believe my time is expired.
    I thank the Chairman. I yield back.
    Mr. Chaffetz. I now recognize the gentlewoman from 
California, Ms. Speier.
    Ms. Speier. Mr. Chairman, thank you, and thank you to all 
of the members of the panel. And let me first say to the 
families who are here, we know how broken your hearts are. And 
we share, albeit at some distance, the same sense of loss that 
you do. And there is no way that we can make you whole again, 
and that is very difficult, I think, for all of us. And 
hopefully, through this hearing and others, we will at least 
have solace in knowing that we will take steps to make sure 
that those who are serving our country in war zones have 
absolutely the best protection available.
    We can't foresee everything. That is why we have lost the 
men and women in battle that we have, but that doesn't mean we 
shouldn't redouble our efforts to try and protect them, so 
thank you.
    Let me ask, there have been concerns raised about the way 
those fallen service members from Extortion 17 were transported 
and whether they were accorded the appropriate respect. For 
instance, some have raised concerns about which flags were used 
to drape over the caskets of some of the fallen heros during a 
ceremony at Bagram Airfield and again at the Dignified Transfer 
Ceremony at Dover.
    Colonel, could you provide for us an understanding about 
the catastrophic nature of this crash that, from what I 
understand, made it impossible in some respects to distinguish 
Americans from Afghan dead. The identities of the remains of 
Extortion 17 service members were not known until after they 
were examined, my understanding is, by the medical examiner in 
Dover following the transfer ceremony. Is that right?
    Colonel Devillier. Thank you, ma'am, for your question. 
That is correct. Given the trauma associated with this 
incident, all of the remains were brought to Dover as believed 
to be unknown, and until scientifically identified by the Armed 
Forces Medical Examiner, there was no way to positively 
identify these individuals.
    Ms. Speier. Is that the protocol that is always used and 
has always been used historically?
    Colonel Devillier. Yes, ma'am, until they are 
scientifically identified by the Armed Forces Medical Examiner, 
every remain that comes to Dover is believed to be--they can be 
visually recognized in certain instances, so every situation is 
different. This particular situation was an aircraft accident. 
It was very traumatic.
    Ms. Speier. In hindsight, would you have handled it any 
differently?
    Colonel Devillier. Well, ma'am, you know, the decisions 
were made at the time based upon the information they had 
available. And the scientific identification process has to 
occur at Dover Air Force.
    Ms. Speier. I understand that. I am just trying to put 
myself in the shoes of family members who were at the ceremony 
watching these caskets come off without an American flag draped 
over them. And, I mean, arguably maybe you would have the 
Afghan flag and the American flag. I don't know what the right 
answer is, but having a coffin come off that has no flag draped 
on it, I am sure gave the family members a sense of pain that 
was magnified by everything else that they had endured.
    Colonel Devillier. Ma'am, while I was not there at the time 
of the event, I can tell you that there was a lot of debate 
that occurred about this on how to properly provide dignity, 
honor and respect to all of the members of Extortion 17. And 
there were different courses of action that were discussed with 
the leadership within the Office of Secretary of Defense. And 
their final determination was to flag drape 30 of the transfer 
cases with American flags and 8 with the Afghan flags.
    Ms. Speier. And that decision was based on what?
    Ms. Skillman. Ma'am, if I may respond to that question, 
again, as Colonel Devillier had stated our leadership was 
presented with several courses of action after we had discussed 
with our colleagues within the Service Casualty Department of 
how to best honor our military service members, the U.S. 
fallen, and also our coalition forces, understanding that 
remains were en route to the United States, we had to make a 
decision rather quickly. Again, it was a catastrophic event, 
largest incident of--number of fallen in one single incident in 
Afghanistan. So, based off the courses of action consult with 
our military departments, OSD leadership decided that to best 
honor, we would be able to display the 30 transfer cases as 
best we could identify were carrying our U.S. service members 
and 8, our coalition forces.
    I would also emphasize that in transport to the United 
States, all remains were under U.S. flag cover, as per our 
policy if we cannot make the distinction. So, en route on the 
aircraft, all 38 transfer cases were under U.S. flag cover.
    Ms. Speier. I realize my time is expired, Mr. Chairman, if 
you would just indulge me for one moment. I think it would just 
be helpful to all of us if you queried the family members as to 
how they perceived the return and if they had any, would have 
any suggestions, just for future reference.
    I yield back.
    Mr. Chaffetz. Thank you. I will new recognize the 
gentlewoman from Illinois, Ms. Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    I want to thank the witnesses for being here, and thank you 
for your service to our country and to all the Service folks in 
the audience, whether retired or not, and my condolences to the 
family.
    Ms. Skillman, you spoke about the person authorized to 
direct disposition. And I was just curious, is there special 
resources or tools that are given to the families or there for 
the families to help them through this time or whoever the 
person is that has been appointed the PADD? Do you help them 
with their decision or----
    Ms. Skillman. Ma'am, a casualty assistance officer--and 
each of the service departments call their assistance officers 
different names, but we will refer to them as assistance 
officers--are assigned to the designated person, the PADD. And 
they are provided information. We do not persuade. We don't 
make recommendations. We merely try to make sure that they have 
all the information available to them to help them in making a 
decision. They are provided with the options that are available 
to them and the amounts that are allowable under law to pay for 
any funeral expenses and what the government can provide for 
them.
    Ms. Kelly. Thank you, and I yield back.
    Mr. Chaffetz. Thank you.
    Pursuant to committee rules, members of the committee--my 
apologies. I now recognize the gentleman from Vermont, Mr. 
Welch, for 5 minutes.
    Mr. Welch. Thank you very much.
    I thank Mr. Chaffetz and Mr. Tierney for the hearing, and I 
want to thank very much Mr. Rigell for being here, since he 
represents so many of the soldiers who died in service to their 
country.
    Thank you very much. And I want to thank the families, and 
I want to thank you.
    How can any of us deal with the loss of a loved one? We are 
all proud obviously of those who die in service of our country. 
Our responsibility is to recognize that we have these Americans 
who sign up and volunteer, no matter what the mission may be. 
And they will report for duty when the commander in chief says, 
We need you. This democracy would never work if we didn't have 
citizens who were willing to put aside their own judgment when 
it comes to what America's engagement should be and defer to 
civilian leadership. And our responsibility here more than 
anything else is to make certain that the missions that we set 
America on are worthy of the willingness of our civilians who 
become military people to make the ultimate sacrifice. So I say 
that really out of respect to the families.
    And I am going to ask one question that I know the answer 
to. These families have all been affected in the same way. They 
have lost a loved one, but they have all been affected in 
different ways because how one deals with loss is very 
personal. And some people need more information; some people 
need more privacy. And the question I have of you is will you 
be available to each of the families to give them every bit of 
information that you can about every detail that they seek to 
try to respect the needs and desires and the emotions of each 
of the families? And they have different ways of trying to work 
through this enormous loss. Thank you.
    Ms. Skillman. Yes, sir. I think I can speak on behalf of 
all of my colleagues here. We welcome the opportunity to assist 
every family member with their individual needs, and we will be 
more than happy to speak to the family members when they are 
ready.
    Mr. Chaffetz. Thank the gentlemen.
    Pursuant to committee rules, we do have some flexibility in 
allowing colleagues who do not serve on this committee to join 
us and ask questions. I would ask my colleagues for unanimous 
consent to allow Mr. Rigell of Virginia and Mr. Fortenberry to 
ask--each be granted 5 minutes to ask questions.
    Mr. Tierney. Without objection.
    Mr. Chaffetz. Without objection, so ordered.
    They care deeply about this issue. I appreciate their 
participation and serve on committees that are also very 
relevant to this issue, so I appreciate their presence.
    I now recognize Mr. Rigell for 5 minutes.
    Mr. Rigell. Well, given that I do not serve on this 
committee, I am especially grateful to the chairman and to all 
members for the unanimous consent that was required.
    And the title of the hearing is, ``Honoring the Heros of 
Extortion 17,'' and my comments are provided here today in that 
spirit, and I hope it honors the good men that we lost.
    Even within a community that accepts the great risk that 
comes with our mission, the loss of Extortion 17 was truly 
tragic and profound. And so to the families that are here 
today, from one American to another, I offer you my deepest 
condolences.
    Now, the tragedy merits and should receive, and I believe 
has received, rigorous examination, unflinching examination, 
looking at each and every measure to see if, indeed, we could 
have done something different, because we owe that to the men 
who we lost that day to honor their memory. And also we owe it 
to the commanders and the warfighters that will follow them to 
provide that with any lessons that could be learned to give our 
warfighter every advantage in equipment, tactical procedures, 
and doctrine to allow them to come home safe.
    You know, each member of this body has standing here, 
whether a member lost someone in their district or not, that, 
as my friend and colleague, Mr. Welch, I think gracefully 
offered, our district has had a disproportionate loss. And it 
is both humbling and honoring to me and sobering really to 
represent so many of our warfighters and their families.
    It is well known, I think, that there is at least some 
degree of controversy associated with the hearing itself. There 
is not unanimity among the family members, and I have a duty 
and the privilege of representing the Second District in 
Virginia, and the families who are there overwhelmingly have 
made clear that their desire would be that we did not hold the 
hearing. But I am especially grateful to the chairman and to 
all who have offered their remarks today that there is a deep 
level of respect, and our heartfelt condolences extend, of 
course, to each and every family.
    I have listened carefully to the testimony that has been 
offered here today. It is under oath. Each one of you, I 
believe, meets the highest standard of an American patriot, and 
it is not a term that I offer casually. I deeply respect your 
service to our country.
    Mr. Reid, I think your own experience in particular and 
your intense investigation here is noteworthy. Do you have any 
question whatsoever, Mr. Reid, that there was no communication 
at all between Americans and Afghans that would have in any way 
jeopardized or compromised that mission?
    Mr. Reid. No, sir, I do not have any questions that that 
information was provided. I know from those involved that this 
particular 17 mission was not coordinated externally.
    Mr. Rigell. Is it your testimony here today that the 
aircraft that was selected for this operation was appropriate 
to the mission?
    Mr. Reid. Yes sir.
    Mr. Rigell. The testimony that I have heard, not only today 
but the classified material itself, which of course we cannot 
go into, I do, and this is with deep respect for those who 
actually hold a different view, I find compelling. And I would 
hope that in this hearing, the fact that it was held, that it 
can bring just perhaps a measure of closure on some of the 
technical issues that need to have been worked through and I 
think, indeed, have.
    It is certainly to my satisfaction, so I thank all who are 
here today. I certainly thank all who have testified. I thank 
the chairman and all the members of the committee for the 
opportunity to speak.
    And I yield back the remainder of my time.
    Mr. Chaffetz. Thank the gentleman.
    I now recognize the gentleman from Nebraska, Mr. 
Fortenberry, for 5 minutes.
    Mr. Fortenberry. Thank you, Chairman Chaffetz, for 
extending me the courtesy of being able to speak here and 
members of the committee as well. I am grateful for the 
opportunity to participate in this difficult moment for many of 
the families here but those of you as well who attend to these 
families. This is difficult for all of us.
    And first, let me extend my heartfelt sympathies to all who 
have lost loved ones through this tragic incident and also 
commend Mr. Rigell for something that I think he put very well. 
I hope that the outcome of this committee provides some measure 
of closure for all of those who have suffered so grievously.
    In late summer of 2011, my office, I was notified that a 
young man from South Sioux City, Nebraska, had been killed. His 
name was John Douangdara. John was a first generation American. 
His parents had fled Communism in Laos and come to the United 
States in 1975 to rebuild their lives. They are good Americans. 
And their son, after high school, like so many other Americans, 
right after 9/11, joined the Navy. This was his fifth tour your 
of duty, and John had a specialty. He had an assault dog, a 
specialty with an assault dog, whose name was Bart, who 
happened to be on this helicopter as well and was also killed.
    The family was kind enough to ask me to speak at the 
memorial service there in South Sioux City and then kind enough 
again, even though this is no longer in my congressional 
district because the lines have changed, to invite me back on 
Memorial Day last year for the unveiling of a statute of John 
and his dog Bart at the park there in South Sioux City.
    Now, those of you who are in the military and those of you 
who have lost a loved one, to know that all of your loved ones 
are honored in a particular special way but to know John's 
story as well and to have seen what I saw, the outpouring of 
support from that little, small community there along the 
Missouri River, called South Sioux City, should be uplifting to 
all of us as Americans.
    I did only have one brief question, and it is a sensitive 
issue, but I would like to get a little bit more clarity on it. 
You mentioned the memorial service that took place immediately 
after the incident. Were there insulting remarks made by an 
Afghan cleric there?
    Mr. Reid. Thank you, Congressman.
    Three people spoke at the ceremony that you are asking 
about. It is a memorial service; the troops call it a ramp 
ceremony. We make a distinction in policy between ceremonies 
and services, but they call it a ramp ceremony. And they have 
been doing them the whole war. And it is an important--and if I 
may, I will get to that. The question was asked earlier about 
why we do that. The troops are in the battlefield, and they are 
continuing the fight. They don't come back to see their loved 
comrades off, so that is their farewell.
    They are filmed, and they are filmed for the purpose of 
providing those to the families. They are filmed by that 
organization at the commander's discretion at that time within 
policy. As you heard the policy has been changed by CENTCOM in 
2013. But they are done so for the families, and they provide 
that to them as a memento of what they did down range.
    Three people spoke, the commander of our Special Operations 
Task Force, a U.S. military chaplain, and the third gentleman, 
to get to your question, is an Afghan. He is a colonel. He is a 
commander of the Afghan unit that we work with. He has been 
working with us in a very trusted, close and cooperative way 
for several years. I believe now--he is still there; started, I 
believe, in 2009. He accounts for those special troops that are 
assigned to our task force. And as I mentioned, they come out 
of the other forces. We run a special selection and a vetting 
and a training program for them. He is the one that spoke. 
There is no other one that spoke.
    I don't speak Arabic. I am not a religious scholar. We have 
had people in our government listen to what he was saying. I am 
told--again, not my authority--that there are verses that he is 
citing. He is commemorating the fallen, all of the fallen. 
There are some interpretations I have seen on the internet that 
he is condemning the Americans, the infidels. Again, it is not 
my expertise, but what we have been told on good authority is 
he is commemorating all of our fallen and condemning the enemy. 
But I understand things are subject to interpretation, sir. 
That is who was speaking.
    Mr. Fortenberry. And that was one of the points that I 
think was particularly sensitive that was under public scrutiny 
about the entire incident.
    Mr. Chairman, thank you for the privilege of being with you 
during this particularly difficult hearing.
    Let me just conclude that I am not here on behalf of the 
Douangdara family. I just got to know them, and I wanted in 
some small measure to honor John's life. He was dedicated to 
his community. He was a warrior. John was an American.
    Mr. Chaffetz. Thank the gentleman.
    I thank both of you for your participation and your heart 
and caring.
    We will now recognize the gentlewoman from New Mexico, Ms. 
Lujan Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And I, too, very much appreciate your participation in 
today's hearing and to work diligently to assure that we have 
the right protocols and procedures to support the men and women 
who give their lives and their families in the most 
appropriate, meaningful way that we possibly can. I cannot 
imagine the pain of losing a family member or a loved one in 
this kind of an incident. And I offer and share with my 
colleagues in giving my deepest condolences and sympathies for 
the family members who are here today and all those family 
members who have suffered these kinds of losses on behalf of 
this country.
    And I also agree that the Department of Defense has an 
obligation to do absolutely everything that it possibly can do 
to be open, transparent, comforting, supportive, and to do that 
at the highest possible level to the family members and every 
family member who has suffered through the loss of a loved one. 
So I know that you have been doing this, and I want you to keep 
doing it.
    Walk me through the process and the protocol that the DOD 
has in place now to ensure that there is direct and a sustained 
line of communication between the Department of Defense Family 
Liaison Offices and the family members of Americans serving in 
harm's way, and what services and supports specifically are you 
providing?
    Ms. Skillman. Ma'am, thank you for your question. If I 
understand your question, the level of support that we are 
providing, the continued support that we provide to our 
surviving family members?
    Ms. Lujan Grisham. Correct.
    Ms. Skillman. Our current policy requires, of course, that 
an assistance officer, whether it is a casualty assistance 
representative from the Air Force or a casualty assistance 
officer from the Army or a casualty assistance calls officer 
from Navy or Marine Corps, assist the family members through 
the initial phase of the loss. We are also required to provide 
long-term support for those family members for as long as they 
want to be part of the military community. Again, we want that 
family member to feel that they can be part of the military 
community for as long as they need us.
    Each Service has their own long-term care program. Army, 
for example, can expound upon that. They have a Survivor 
OutReach Services Program, and I will allow each of the 
Services just to talk about their program, but that program is 
in place where there are people that are available for the 
family members to contact to provide that long-term care 
support.
    Ms. Lujan Grisham. Thank you. Can you give me some 
specifics. So that is going to be counseling? Are there 
therapeutic services, an opportunity for suggestions about how 
to improve those processes, involvement in the services to the 
highest degree possible? Can you give me some level of 
specificity about the kinds of services that you are providing 
to family members and loved ones?
    Ms. Skillman. Yes, ma'am. Each of those long-term programs, 
they want to keep them involved, especially around their 
community. Some family members are not close to a military 
installation, so we want to reach out to them, make sure that 
they are part of the community. TAPS is an integral part of 
that. We constantly work with our other agencies that provide 
support to our family members, so the Marine Corps may invite 
family members to TAPS events. The Army Survivor Outreach 
Services may bring in--provide a session that provides some 
counseling for family members; make sure that if they need 
bereavement counseling, they can reach out to the Department of 
Veterans Affairs or other agencies who may be providing that 
level of support. But again, it is a case manager that is 
assigned to that family member that knows what their specific 
needs are.
    Ms. Lujan Grisham. And given that each one of these 
tragedies is very difficult to accept, we want to absolutely 
evaluate it in the context of mitigating for the future but 
also supporting men and women and, again, the family members 
who suffer these kinds of tragedies, is there a process also 
for being clear about things that the families want you to do 
to improve and how that communication occurs? And what can 
Congress be doing to ensure that all of these protocols and all 
of these processes continue to sort of amend and grow and 
really meet the needs of both the current situations and the 
potential for future issues that should be supported in the 
context of these families?
    Ms. Skillman. Thank you, ma'am.
    Our current program requires that we proactively provide 
family members and inform them of specific Federal 
entitlements. That long-term program, of course, is dependent 
upon the family's needs. We have two governing bodies, the 
Casualty Advisory Board and the Central Joint Mortuary Affairs 
Board that meets quarterly. Those two boards that these members 
represent, they are voting members on both of those boards, as 
I know OSD chairs both of them. They are the governing bodies 
that we ensure that we are doing things right by the family 
members. At those times, we review specific cases. We may 
review our policies, make recommendations where we think 
legislation needs to be corrected. Where a survivor's needs are 
not being met, there may be a gap in law or policy. And those 
boards, we make those recommendations at that time.
    Ms. Lujan Grisham. And, Mr. Chairman, with your diligence, 
I have one small follow up.
    And how often are those reports or suggestions, is that 
annually? Do you do it quarterly, and I would suggest that we 
have more access to that kind of information in this committee, 
Mr. Chairman.
    Ms. Skillman. Ma'am, we meet quarterly.
    Ms. Lujan Grisham. But that information is available 
quarterly, or do you do kind of an annual report?
    Ms. Skillman. There is no reporting requirement to Congress 
at this time, ma'am.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    I yield back.
    Mr. Chaffetz. In consultation with the Ranking Member 
Tierney, I have a series of questions. We tried to get as many 
different questions from the families as possible, so I am 
going to go through a series of questions here. Again, it won't 
answer every question that every family member has, but I think 
it is a good representation of some of their specific concerns.
    First of all, I can tell you that having reviewed the 
records, the pilots that were operating this aircraft are of 
exceptional quality, skill and high rating, but there were some 
questions about why was there no pre-assault fire laid down 
before, as this helicopter was coming in. Could you help 
clarify that, Mr. Reid?
    Mr. Reid. Yes, sir. Thank you. The use of pre-assault fire 
is a tactical decision based on conditions on the ground. The 
objective of Extortion 17 was to get into the LZ and drop off 
the assault force and depart the area without alerting the 
enemy overtly. I think as we explained to you the other day, 
the force was going to then walk closer to the target. So you 
are trying to achieve surprise. Firing in advance of that in a 
suppressive fire mode would be highly alerting to the enemy, 
and, secondly, there was no enemy detected on the landing zone. 
But let me just clarify, this is a tactical decision.
    Mr. Chaffetz. Can you give us a general sense of the time 
of day that this is happening?
    Mr. Reid. 2:39 in the morning on the morning of August 6, 
2011.
    Mr. Chaffetz. One of the concerns and the questions about 
the Afghans that were on this helicopter, there were some 
allegations that there were Afghans on the helicopter, I should 
say, and then got off, and a different group got on, which begs 
an awful lot of questions. Can you help clarify that, please?
    Mr. Reid. Yes, sir. Thank you. There are two groups of 
Afghans assigned to this task force. One group went on the 
first Target with the Rangers. The second group was on 
Extortion 17. There was a mistake made after the crash to 
retrieve the list of Afghans that were aboard 17. The list that 
was provided was for the other squad that was with the Rangers. 
This created this confusion and led to some speculation that 
there was a switching out of the actual forces. That is not the 
case, sir.
    Mr. Chaffetz. Why were there Afghans on the plane, and what 
kind of experience did we have with these people--I keep saying 
plane. On the helicopter. What kind of experience did we have? 
How many times, missions, had they done in the past? Was this a 
new group. Can you provide some context there, please?
    Mr. Reid. Yes, sir. This group of Afghans we referred to as 
our partnered unit, and they have been aligned with our assault 
forces going back to 2009. The purpose of these forces is to 
facilitate actions on the objective, primarily by speaking with 
and dealing with the enemy and the civilians on the target 
because they speak the language and they know the culture.
    As was mentioned earlier, the majority of these missions 
since we started doing this result in what we call a tactical 
callout, saying we are out here, come out. And 80 percent of 
the missions, therefore, because of this capability are 
accomplished without any shots being fired. So it greatly 
enhances our safety. That is why they were there. How they got 
there is through a very long and extensive training cycle that 
lasts about 7 months. They are hand selected out of the Afghan 
Army and Afghan police and their other security services. They 
are vetted, trained and selected, and then aligned with our 
units. They are paired with our forces. They go on a rotation 
cycle, just like our forces did. Our assault forces come in for 
about 90 days in cycles, and we rotate them back out. We align 
the Afghans in a similar cycle, and they repeat that. These 
folks, again, for the previous 2 years prior to this, every 
mission we are taking them on the objective with us. This was 
not a new construct.
    Mr. Chaffetz. My understanding is that General Colt 
conducted part of this review, and one of the questions is why 
it appears there were no Afghans that were interviewed. Why 
not?
    Mr. Reid. Sir, I don't know specifically why no Afghans 
were interviewed. The focus of his investigation and the list 
of questions that the commander of CENTCOM charged him to 
answer did not require him to interview others outside our 
decision chain and our training and equipment chain.
    Mr. Chaffetz. Perhaps you can provide some additional 
clarification for the committee. That would be appreciated. I 
want to go back to the ramp ceremony itself. Having been 
through a number of meetings, classified, unclassified 
discussions, not to belabor the point, but to my colleagues 
here, I think one of the--and this is just Jason Chaffetz, just 
me personally, my personal take on it. You all are the experts. 
You have been doing this for years, but my sense of it is that 
if you do have a situation where there are deceased Americans 
and whatever country, in this case Afghanistan, my sense of it 
is that there probably should be two different ceremonies.
    I think if--I mean, I can't even imagine having my son or 
daughter go through this, but I don't want some Afghan saying 
something about my son. I don't want that. So I hope--we are 
supposed to be the Oversight and Government Reform. I would 
hope the Pentagon would seriously consider--honoring those 
Americans is our number one priority, and of course, we are 
going to honor those that also lost their lives, but do it 
separately. And let's not have this mistake and this heartache 
that these families feel. That is my suggestion.
    And, Ms. Skillman, I need you or one of the others to help 
explain, clarify, just how is it we can lay a tombstone and 
then have to go back and change it. And in some cases, I think 
it happened three times. Can you shed some light on this? You 
are a very committed, patriotic person. It is not all on her 
shoulders.
    To the families and members here, she is the brave one who 
is sitting here helping us.
    But this is very hard for a family to go through. Can you 
please shed some light on this?
    Ms. Skillman. Yes, sir. The group internment, I believe, is 
what you are referring to here, is that group headstone that is 
at Arlington National Cemetery. Per our current policy, we may 
decide if there are remains that cannot be identified to a 
single individual, that we may have a group internment of those 
at a specific place. Arlington is picked pretty regularly, and 
then a headstone is placed on that location.
    Normally we list the names of the deceased. There are some 
challenges in this particular case because of our coalition 
forces, and we struggled with how we would appropriately label 
that headstone. And in deference to the family members, we 
should have given them the opportunity to review our 
suggestions. And I think that is something that we can look at 
before we ever put another headstone on a group internment, 
conferring with the family members of how they would like that 
to be done.
    Mr. Chaffetz. I appreciate that, and I have one more topic 
and then if any members have additional questions.
    You know, the people out there who are paying attention and 
care about Extortion 17, they didn't just make this thing up 
about a black box being washed away. That wasn't just something 
that somebody made up out of the blue. There is some reason to 
believe that the, I am not sure what his rank is, but the 
commander essentially on the ground, made note of the fact that 
they were looking for in black box and they couldn't find the 
black box.
    Again, you are telling us, Mr. Reid, that these helicopters 
aren't even equipped with them, but how is it the commander 
wouldn't know that.
    Mr. Reid. Sir, I can't speak exactly for what the commander 
thought. I have seen the transcript of where he talked about 
looking for it. I would say, though, that this crash 
environment is a hostile environment. We did not have complete 
freedom of action, freedom of thought of what we were doing, 
what we were coordinating and what we were looking for. That 
team went in there in the immediate moments after the crash to 
recover the fallen, as I indicated, over a period of 4 days 
going through the wreckage. I don't know why they thought they 
would be looking for one either, but I have spoken to our 
aviation community. And they have assured me that those 
helicopters are not equipped with such a device.
    Mr. Chaffetz. Thank you, and for those on the committee, I 
just want people to know that many of our men and women who are 
intimately involved in this are also continuing to serve and 
serve abroad.
    Anyway, I appreciate it. Does any other member have 
additional question or comment?
    Gentlewoman from Wyoming.
    Mrs. Lummis. Mr. Chairman, I simply want to comment that I 
am proud of the work you have done as chairman, on this. It is 
apparent that you went through this record exhaustively and 
that you took to heart the concerns that certain family members 
have.
    I recognize that there are other families who may have felt 
differently about the appropriateness of this hearing, but I 
just want to commend you and thank you for your diligent regard 
for the families who did have concerns so they would have an 
opportunity today to hear you ask the questions that they have 
had on their minds and hearts.
    And I just want to thank you, Mr. Chairman. I think you 
have done a very commendable thing.
    Mr. Chaffetz. Thank you.
    We recognize the gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you.
    Well, I just want to add my comments that I hope the 
families that have had concerns and questions have now felt 
that they have had an opportunity to hear fairly broadly 
answers to those concerns and that they are going to be heard 
going forward and attention will be paid to their continuing 
concerns and questions.
    But I want to address our panelists here today. I think 
nothing that I have read or heard would indicate that any of 
you proceeded or any of those under your commands have 
proceeded with anything but the best of intentions and caring 
and concern for their colleagues with whom they either work 
directly or indirectly or at least emphasize with because of 
their shared commitment to this country and to each other. And 
I commend all of you also for diligently going about your 
investigations and your review in the same manner and also the 
willingness to learn where learning is appropriate on that.
    And thank you for your service and for the way that you 
have represented your country well.
    Mr. Chaffetz. Thank you.
    As we conclude here, I want to first thank the five people 
that are sitting here before us. You have a tough assignment 
but probably one of the most important assignments. It is a 
great opportunity, and I know you all feel that. I have chatted 
with you previously. I can tell that in your demeanor and your 
approach. We thank you for your service and your dedication.
    Most importantly, we obviously unanimously, regardless of 
party or politics or anything else, we cannot thank the men and 
women enough who serve this Nation and those that have given 
their lives for this Nation.
    There is a different group of people in our country, and 
these are the men and women who run to action. They run to the 
fire fight. That is the American way. There is a certain group 
of people who just do that. They just do it instinctively, and 
those Americans who do that are my heroes. I thank the families 
for their sacrifice. That is quite a thing that this is the 
largest loss of life, but it has happened unfortunately 
thousands of times. And I just hope they feel the love of this 
Nation, and so I appreciate the hearing. We stand adjourned.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]









                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
